      CORPORATION

      F O R NATIONAL




OFFICE OF THE INSPECTOR GENERAL




    Semiannual Report to the Congress

    October 1, 1996 - March 3 1, 1997
Office of the Inspector General                                                               CORPORATION
                                                                                              FOR NATIONAL

April 30,1997

Harris Wofford
Chief Executive Officer
Corporation for National and Community Service
1201 New York Avenue, NW
Washington, DC 20505

Dear Senator Wofford,

This report covers the first half of the Corporation for National and Community Service's fourth
year of operations, during which the Corporation's AmeriCorps program moved into its third
year. During this period, the Office of the Inspector General issued 12 audit reports and
completed action on 25 investigations.

Audit Activities

The Office of the Inspector General is in its third year of a strategic plan that focuses on financial
management risks in the Corporation's new programs. During this semiannual reporting period,
our audits have assessed the financial management of the Corporation and its AmeriCorps
grantees. These efforts, and the Corporation's responses to our reports, have led us to conclude
that while the Corporation improved financial management in some areas, additional efforts must
be devoted to improving management controls and resolving other financial management issues.

Corporationfor National and Community Service Financial Management Issues. As a result
of issues raised in March 1996, OIG reports,' the conferees on the Omnibus Consolidated
Rescissions and Appropriations Act of 1996 (Public Law 104-134) requestedZthat our office
periodically report to the Congress on the Corporation's progress in improving its financial


1
  In Report 96-36, OIG reported that the Corporation's FY 1994 financial statements could
not be audited because of deficiencies in systems, lack of documentation supporting the
statements, and material weaknesses in CNS' management control structure; and in Report
96-38, a two volume report to OIG, Williams, Adley and Company, LLP and Arthur
Andersen LLP made 99 recommendations for corrective actions necessary to produce
                                                                                              1201 New York Avenue. NW
auditable financial statements for the Corporation.                                           Washington. DC 20525
                                                                                              Telephone 20L-606-M00
* House Report 104-537.

                                                                                              GettingThings Done.
                                                                                              AmeriCorps. National Service
                                                                                              Leam and Serve America
                                                                                              National Senior Service Corps
Office of the Inspector General
Semiannual Report for the Period Ending March 3 1, 1997
Transmittal Letter
Page 2

management systems and in developing auditable financial statements. In December 1996, we
issued OIG Report 97-09, Report on the Follow-up Study to the Auditability Survey. The
Follow-up Study revealed that the Corporation had implemented 28 of the 99 recommendations
made in the original Auditability Survey. However, the corrective actions were not sufficient to
improve the Corporation's internal accounting controls so as to enable an auditor to perform an
effective and efficient audit of the Corporation's financial statements for fiscal years 1994 and
1995. The report also concluded that an audit of the Corporation's fiscal year 1996 financial
statements may not be possible because many significant deficiencies remained uncorrected
throughout fiscal year 1996.

Under the direction of its new Chief Financial Officer, the Corporation has indicated that it has
embarked on efforts to strengthen its management controls and to correct its accounting records,
and that it has made significant progress in correcting the deficiencies described in the
Auditability Survey and the Follow-up Study reports. This month (April 1997) we began a
second assessment of the Corporation's progress in correcting the deficiencies reported in the
Auditability Survey. We expect to report on this assessment during the final quarter of this fiscal
year.

Notwithstanding the announced improvements, we have noted that the Corporation has not
adhered to the Government Corporation Control Act's requirement to submit an annual
management report. Under the Act (3 1 U.S.C. 9 9106), the Corporation's management report
must include its financial statements and a statement on the Corporation's assessment of its
internal accounting and administrative control systems. To date, the Corporation has not
submitted to Congress (and others as required by the Act) the management reports for fiscal
years 1995 and 1996, including financial statements and reports on its internal accounting and
administrative control systems. As of March 31, 1997, the Corporation had not prepared
financial statements for fiscal years 1995 and 1996. Moreover, while the Auditability Survey and
the Follow-up Study provide assessments of the Corporation's internal accounting controls, the
Corporation has yet to undertake an assessment under which it could report on the effectiveness
of its administrative controls. In our view, a comprehensive study of management controls is
essential to establishing an efficient and effective organization.

In March 1997, we issued OIG Report 97-27, Audit of the National Service Trust Fund Fiscal
Year 1995 and 1994 Financial Statements, in which we reported that material and pervasive
internal control, record keeping, and EDP systems deficiencies precluded an audit in accordance
with generally accepted government auditing standards. The report disclosed accounting and
record keeping deficiencies similar to those revealed by the previous Auditability Survey and the
Follow-up Study. However, the report also discloses that the Trust Fund System had serious
deficiencies. These conditions are discussed in the Audit Section of this Semiannual Report.
Office of the Inspector General
Semiannual Report for the Period Ending March 3 1,1997
Transmittal Letter
Page 3

Finally, the report discloses that the Corporation has failed to comply with reporting
requirements established under the National and Community Service Act, as amended (45 U.S.C.
12601(d)). Under those provisions, the Corporation was required on March 1 of 1995 and 1996,
to submit reports to the Congress on Trust Fund receipts and expenditures for the preceding
fiscal years. However, the Corporation did not submit its fiscal year 1994 report to Congress
until December 1996 (2 1 months late) and has not submitted its fiscal year 1995 or 1996 reports
at all.

Under the Corporation's audit resolution system, a corrective action plan addressing the findings
and recommendations in the Trust Fund report is due no later than June 16, 1997. Under Federal
law (section 6009 of the Federal Acquisition Streamlining Act of 1994, as amended by section
8 10 Public Law 104-106), the Corporation's final corrective actions must be completed by
March 11, 1998.


Financial Management Issues Related to CNS Grantees. In fiscal year 1995, we reoriented our
approach to auditing CNS' grantees to concentrate on CNS' newly established ArneriCorps
programs. Over the past three years, the Corporation has awarded more than $500 million to its
AmeriCorps grantees. We began these efforts not only because these awards represent the
Corporation's largest spending category, but also because we were told that CNS had not
performed nor required assessments of its grantees' capacity to account for grant spending in
accordance with Federal requirements.

We also expanded our audit universe to cover grants made by one of the Corporation's
predecessor organizations, the Commission on National and Community Service. When the
Corporation was established, it assumed the responsibility for oversight of these grants. We
included them in our audit universe because we were informed that, during their performance,
oversight by the Commission was minimal.

Since 1995, we have issued 36 reports on ArneriCorps grantees and nine on grantees funded by
grants awarded by the former Commission on National and Community Service. Many of o w
reports have disclosed deficiencies in grantee internal control systems and failure to comply with
Federal requirements. Questioned costs to date exceed $3 million.
Office of the Inspector General
Semiannual Report for the Period Ending March 3 1, 1997
Transmittal Letter
Page 4

In previous Semiannual Reports, we have included tables that depicted the conditions commonly
found when we audited Corporation grantees. In this report we have added two additional issues
related these reports: audit resolution and grantee administrative costs.

Finally, as required under the Inspector General Act, we are reporting that, as of March 3 1, 1997,
the Corporation has not made final management decisions on 3 1 audit reports within the six
months required under Federal law. These delays are now causing the Corporation to fail in
meeting the statutory requirement to complete corrective action on audit reports within one year.
As required by law, we are reporting that, as of March 3 1, 1997, the Corporation had failed to
complete final action on nine audit reports that were more than a year old. Further, as this
Semiannual Report indicates, on average, 300 days have elapsed before the Corporation has even
responded and proposed corrective action for many of the reports we have issued. These
conditions indicate that the Corporation's oversight processes need improvement. Moreover,
these conditions portray practices that are unfair to grantees awaiting resolution of questioned
costs and other audit-related issues.

Investigative Activity

Reporting statistics for this period reveal that while the level of activity remained steady, the
number of cases closed with significant fmdings increased. As described in the Investigations
section of this report, in several instances, these investigations resulted in reports to the
Corporation requesting management action.




As you are aware, the Inspector General Act of 1978, as amended, requires that you submit this
report, along with any comments you may wish to make, as well as statistical tables and reports
required by the law, to the Congress within 30 days. In addition, the Act requires that you submit
this report, with your comments and the required information, to CNS' Board of Directors no
later than the date on which you submit the report to the Congress.




Luise ~0rkh.n
Inspector General
OFFICE OF THE INSPECTOR GENERAL




   Semiannual Report to the Congress
    October 1, 1996 - March 3 1, 1997




    CORPORATION FOR NATIONAL SERVICE
                                         TABLE OF CONTENTS

Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

Auditing Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

          Reports Issued During the Period
          October 1. 1996 ..March 3 1. 1997 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .8

Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

           Statistical Summary of Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

Review of Legislation and Regulations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

Index to Reporting Requirements of the Inspector General Act                                  . . . . . . . . . . . . . . . . . . . . . 26

TABLE I              ..         Inspector General Issued Reports with Questioned Costs
                                for the Six-month Period Ending September 30. 1996 . . . . . . . . . .21

TABLE I1             ..         Inspector General Issued Reports with Recommendations
                                That Funds Be Put To Better Use for the Six-month Period
                                Ending September 30. 1996 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

TABLE I11            ..         Summary of Audits with Overdue Management Decisions . . . . . . . 23

TABLE IV             ..         Significant Reports Described in Prior Semiannual
                                Reports Without Final Action . . . . . . . . . . . . . . . . . . . . . . . . . . . . .25
                                      INTRODUCTION
The Corporation for National and Community Service (CNS) was created under the National and
Community Service Trust Act of 1993. Through several programs, the Corporation offers
Americans of all ages and backgrounds the opportunity to participate in community-based
service programs. These programs include AmeriCorps State and National Direct grants,
VISTA, the National Civilian Community Corps, Learn and Serve America, and the National
Senior Service Corps.

                               AUDITING ACTIVITIES
OIG REPORTS ON CNS FINANCIAL MANAGEMENT

During this reporting period we issued two reports assessing CNS' financial management and
operations. These reports disclosed material deficiencies in the Corporation's financial systems,
accounting records, and management controls. Although the Corporation has embarked on
efforts to strengthen its management controls and to correct its accounting records, correction
of these deficiencies is critical to achieving auditable financial information for the Corporation.

       Report on the Follow-up Study to the Auditability Survey (OIG 97-09)

In December 1996, we issued our report on the Corporation's progress in correcting deficiencies
in its financial systems and management controls first identified in OIG Report 96-38, Report
on the Results of the Auditability Survey (March 1996). The review was performed by Arthur
Andersen LLP under contract to the OIG, and was limited to 62 corrective actions planned for
implementation by CNS by August 3 1,1996.

The report noted that, of the 62 corrective actions assessed, 28 were adequately designed and
operating effectively. However, 34 of the corrective actions were not adequate to correct or
mitigate the related internal control deficiencies. The following table depicts the status of CNS'
corrective actions for the material weaknesses, other reportable conditions, and other
observations as reported in the Follow up Study.

                                      Originally    Total                   Not           Not
                                      Reported     Assessed   Corrected   Corrected     Assessed
 Material Weaknesses                     33          22           6           16           11
                                                                                                   -



 Other Reportable Conditions             41          29           15          14           12

 Other Observations for Improvement      25           11          7            4           14
         Total                           99          62          28           34           37
We also concluded that the corrective actions that had been implemented were not sufficient to
improve the Corporation's internal controls so as to enable an auditor to perform an effective and
efficient audit of the Corporation's financial statements for fiscal years 1994 and 1995. Further,
an audit of the Corporation's fiscal year 1996 financial statements may not be possible because
many significant deficiencies remained uncorrected throughout the fiscal year.

During the course of the work, we informed CNS of our assessments of the adequacy of the
corrective actions. In its response to the report related to the 34 uncorrected conditions, CNS
included descriptions of actions it initiated after the assessment. We began a second review of
the Corporation's corrective actions in April 1997 and anticipate reporting the resultsin July.

       Audit of the National Service Trust Fund Fiscal Year 1995 and 1994 Financial
       Statements (OIG 9 7-2 7)

In March 1997, we issued our report on the audit of the Corporation's National Service Trust
Fund financial statements for fiscal years 1995 and 1994. The report noted that the
Corporation's internal controls were not adequate to ensure complete and accurate financial
statements. In addition, the Corporation did not maintain adequate accounting records and other
evidential matter in support of the Fund's service award liability, service award expense, and
appropriations transactions. As a result of these conditions, the auditors were unable to express
an opinion on the fairness of the Fund's financial statements.

The report noted material weaknesses in the Trust Fund System and the Trust Fund's financial
records, including the Corporation's failure to properly reconcile the Trust Fund's f h d balance
and investment accounts with those maintained with Treasury. The Trust Fund System was
created to maintain a database of ArneriCorps Members' educational awards. Its database
includes, among other items, information on Members' enrollment, status, education level,
service hours completed, completion dates, awards earned, and amounts paid for educational
benefit awards. However, the auditors found that the database information (1) could not always
be verified from or reconciled to external documentation of enrollment or certification of
completion; (2) could be changed in the system without any evidence of approval or supporting
documentation (audit trail); and (3) was not limited by system or other controls which prohibit
or limit certain types of incomplete or erroneous data entry.

In addition, the report cited as a material instance of noncompliance with laws and regulations,
the Corporation's failure to submit the required Trust Fund reports to Congress on a timely basis.

In responding to the report, CNS generally concurred with the findings and recommendations.
CNS also stated that it was conducting an over-all review of the system's internal control
structure, and that it would develop corrective actions to address the control issues raised in the
report.
CONGRESSIONAL REQUEST TO REVIEW THE PRESIDIO LEADERSHIP CENTER
(OIG 97-17)

The Chairman of the Subcommittee on Oversight and Investigations of the House of
Representatives Committee on Education and the Workforce requested that the OIG review the
Presidio Leadership Center and provide the Subcommittee with information on its activities and
costs. CNS established the Presidio Leadership Center (PLC) in January 1995 as the
Corporation's training arm to equip and support leaders of community service organizations,
state commissions, and CNS staff with the leadership skills and sewice strategies to achieve the
Corporation's mission.

We found that the Corporation has a clear statutory basis for establishing and operating the PLC.
The various programs operated by the Center are targeted at, and demonstrate a commitment to,
the development and enhancement of CNS-affiliated service programs and appear to adhere to
the purposes and goals of the National and Community Service Act. Further, although we
concluded that the PLC did not have adequate controls over the review and acceptance of
participants in the National Service Executive Program during fiscal year 1996, we found that
all participants who attended the National Service Executive Program were affiliated with CNS
and its programs. Further, our review of participants attending other training sessions offered
by the Center revealed that the participants were affiliated with CNS programs.

Our review of PLC costs revealed that CNS lacked an adequate method and systems to account
for and record the total costs of the PLC's operations and training activities. PLC records were
incomplete and inaccurate, and we found that CNS cost estimates for PLC using these records
were understated. However, based on the information and records we were able to review, we
estimated that the per participant cost for the National Service Executive Program was
comparable to similar leadership training offered by Federal and commercial entities.
AUDITS AND REVIEWS OF CORPORATION GRANTEES
OIG performs audits and reviews of selected AmeriCorps programs that have completed one or
more years of program activity. The audits and reviews are carried out by both OIG staff and
independent public accounting firms under contract to the OIG.
The audits are intended to assess whether reported costs were allowable under Federal
regulations and whether grantees complied with the terms and conditions of the award. The
reviews are primarily performed to evaluate the accounting systems and management controls
of AmeriCorps programs to determine whether they are adequate for managing the award in
accordance with Federal and grant requirements and for safeguarding Federal fimds. We also
audit grants that were awarded by the CNS' predecessor agencies, the Commission on National
and Community Service and ACTION.
We issued 9 reports on grantees during this period. As illustrated in the table below, our work
has revealed issues in several areas. A brief discussion on the results of our work at each grantee
follows the table.




                                                             Award
                          Grantee                           Amount


 Audits

PennSERVE (Pennsylvania Association of Colleges and
Universities; OIG 97-0 1)                                   $3,930,029

 Oregon Youth Conservation Corps (OIG 97-02)                   55 1,592
 Serve Houston (OIG 97-26)                                   2,207,O 15        No Findings
 Reviews

 YMCA of USA (OIG 97-03)                                       586,947
 Kansas City Consensus (OIG 97-04)                           1,O 10,000

 YouthNet of Greater Kansas City (OIG 97-05)                   3 17,906
 Legal Services Corporation (OIG 97-06)                        752,000
National Council of Churches of Christ in the USA
(OIG 97-07)                                                    850,000

 University of Maryland at Baltimore County (Shriver
 Center; OIG 97-08)                                            625,963
Summary ofAudits and Reviews of AmeriCorps Grantees Issued During the Reporting Period

AUDITS
                                                            procedures did not exist to determine the
PennSERVE (Pennsylvania Association               of
                                                            allowability of incurred costs by OYCC or its
Colleges and Universities; OIC 97-01)
                                                            subrecipients;
We audited the funds awarded to PennSERVE for           0   funds were disbursed to subrecipients who did
the period August 1, 1992 to December 3 1, 1995
                                                            not have adequate accounting systems which
(award number 92NMSTPA0007). The former
                                                            were able to segregate grant funds;
Commission on National and Community Service
awarded the grant under the National and
                                                            subrecipients were not adequately monitored by
Community Service Act of 1990.       Our audit
                                                            OYCC; and
disclosed that PennSERVE lacked adequate
                                                            OYCC incurred administrative costs in excess of
0   controls over its financial management system;
                                                            the maximum allowed under the terms of the
                                                            award.
0   controls for monitoring subrecipients; and
                                                        In addition, we questioned $280,147 in costs claimed
    segregation of duties.
                                                        under the award.
In addition, we reported that PennSERVE incurred
                                                        In its response to the report OYCC disagreed with
administrative costs in excess of the maximum
                                                        the questioned costs, stating that supporting
allowed under the terms of the award. We also
                                                        information was available that had not been provided
questioned $874,971 in costs claimed under the
                                                        to the auditors.
award.
                                                        Serve Houston (OIC 97-26)
In response to the report PennSERVE stated that it
had taken corrective actions to improve the
                                                        We audited the funds awarded by CNS to Serve
program's effectiveness. However, PennSERVE
                                                        Houston through the Texas Commission for National
disagreed with the questioned costs related to
                                                        and Community Service under Cooperative
Administration.
                                                        Agreement number 94ASCTX045. The audit
                                                        covered the costs claimed during the period August
Oregon Youth Conservation Corps (OIG 97-02)             1, 1994 through December 3 1, 1996 and was
                                                        intended to determine whether financial reports
We audited the funds awarded to the Oregon Youth        prepared by Serve Houston presented fairly the
Conservation Corps (OYCC) for the period                financial condition of the award and the award costs
June 1, 1992 to July 10, 1994 (award number             reported to CNS were documented and allowable in
92COSTOR0021). The former Commission on                 accordance with the terms and conditions of the
National and Community Service awarded the grant        award.
under the National and community Service Act of
1990. The report disclosed that                         The audit disclosed no questioned costs, material
                                                        instances of noncompliance, or any matters involving
    OYCC incurred unallowable and/or unsupported        the internal control structure and its operations that
    costs and incurred costs after the date the award   were considered to be material weaknesses.
    expired;

    OYCC did not incur the required matching share
    of 25 percent;
REVIEWS                                                     KCC's fiscal responsibility need to be resolved
                                                            by CNS grants management officials; and
YMCA of the USA (OIG 97-03)
                                                        0   KCC paid living allowances during the
We performed a limited review of the YMCA of the            program's first year of operations to 36
USA's financial reporting and accounting systems to         AmeriCorps Members whose names were not
assess their ability to comply with Federal fiscal          listed on CNS-produced AmeriCorps Member
accounting and reporting requirements applicable to         rosters. Failure to include individuals enrolled in
its AmeriCorps grant, as well as its ability to             a program understates CNS' statistics for the
safeguard related finds. We concluded that the              number of AmeriCorps Members and Member
YMCA of the USA's accounting system and internal            attrition rates.
control procedures were generally adequate to report
grant expenditures in accordance with applicable        In its response to the report, KCC and the YMCA
requirements, and to safeguard Federal funds.           agreed with the findings and stated that corrective
However, we also noted the following deficiencies       actions were under way to improve the program.

   the YMCA of the USA frequently understated its
                                                        YouthNet of Greater Kansas City (OIG 97-05)
   total Federal expenditures in its Financial Status
   Reports ( F S R S ) ~filed
                          ~ ~its FSRs late; and
                                                        We reviewed an AmeriCorps*State grant awarded by
                                                        the Missouri Community Service Commission to
   the YMCA of the USA did not adequately
                                                        YouthNet of Greater Kansas City. The purpose of
   monitor its subgrantee's compliance with OMB
                                                        the review was to assess YouthNet's accounting and
   Circular A- 133, which called for the YMCA of
                                                        management control systems to determine their
   the USA to request and review the subgrantee's
                                                        ability to comply with Federal fiscal accounting and
   A- 133 reports.
                                                        CNS grant requirements. We issued a letter report
                                                        to advise CNS of conditions that we believe warrant
In its comments on the report, the YMCA of the
                                                        further review and oversight by the Corporation and
USA generally agreed with the findings and stated
                                                        the Missouri Community Service Commission.
that they were taking corrective actions.
                                                        Specifically
Kansas City Consensus (OIG 97-04)                       0   YouthNet may have used as much as $176,000 in
                                                            excess AmeriCorps funds to temporarily finance
We performed a review of CNS' AmeriCorps grant
                                                            its non-AmeriCorps operations;
to Kansas City Consensus (KCC). Prior to issuing a
report on the review, CNS began to transfer the grant
                                                            YouthNet claimed a flat 5 percent charge for the
and the program from KCC to the YMCA of Greater
                                                            Federal share of its administrative costs without
Kansas City. We issued a letter report to advise CNS
                                                            the documentation required by CNS regulations;
of conditions that may not have been corrected by
                                                            and
the transfer of program oversight to the YMCA.
Specifically                                            0   YouthNet had weaknesses in its controls over its
                                                            AmeriCorps Member time sheets and service
   KCC experienced a high degree of AmeriCorps
                                                            activity, and monitoring of its subrecipients.
   Member attrition during the first two years of the
   program;
                                                        In their response to the report, the Missouri
                                                        Community service commission and YouthNet
   we noted several conditions relating to KCC's
                                                        substantially agreed with the findings and stated that
   Federal financial reports and grant costs that
                                                        corrective actions had been implemented.
   were not reported by KCC's independent
   auditors. These conditions, an audit under
   Federal standards of the final months of
   operation of the grant, and final closeout of
Legal Services Corporation (OIG 97-06)                       the Council did not maintain written contractual
                                                             agreements with its subrecipients;
In our review of the Legal Services Corporation
                                                         0   the August 3 1, 1995, Financial Status Report
(LSC) we concluded that LSC's accounting systems
and management controls were inadequate to report            contained a mathematical error, which resulted in
grant expenditures and to safeguard Federal fimds            an understatement of $4,2 13 of cumulative
because                                                      claimed costs; and
                                                         0   the Federal Cash Transactions Report and the
    subgrantee staff salaries and fringe benefit costs       Financial Status Report were not reconciled to
    charged to the grant were unsupported due to             the general ledger.
    inadequate subgrantee time keeping procedures;
                                                         University of Maryland at Baltimore (The Shriver
0   LSC did not adequately monitor subgrantee            Center; OIG 97-08)
    financial activities; and
                                                         In our review of The Shriver Center, we concluded
    LSC costs claimed for administration exceeded        that its accounting systems and management controls
    the Corporation's five percent limitation on such    and the applicable portions of the University of
    costs.                                               Maryland at Baltimore County's (UMBC)
                                                         accounting systems and management controls were
As a result, we questioned $82,114 in costs claimed      inadequate to report grant expenditures in
under the award.                                         accordance with grant requirements and to safeguard
In its comments on the report, LSC disagreed with        Federal funds.        Our audit identified several
the findings and provided additional information on      conditions which warrant correction including
several issues. We considered some of this
information sufficient to revise the findings.               lack of adequate oversight by management
Additionally, LSC disagreed with the questioned              leading to lapses in financial controls;
costs related to Administration.
                                                             labor costs charged to the grant for non-
National Council of the Churches of Christ in the            professorial and non-professional staff not based
United States of America (OIG 97-07)                         on an after-the-fact labor distribution system; we
                                                             questioned $58,53 1 of salaries and related costs;
Our review of the National Council of the Churches
of Christ in the United States of America found that         Member time sheets that were not signed by a
the Council's accounting systems and system of               supervisor at one of the three operating sites;
internal controls were not adequate to report grant
expenditures in accordance with grant requirements           Financial Status Reports that were not always
and to safeguard Federal funds. We noted the                 submitted on time; and
following deficiencies
    matching share costs were not recorded in the        0   instances of noncompliance with certain
    accounting system and the participant support            provisions in the subgrant agreements.
    matching share reported did not meet the
    percentage required by the grant budget;             In its response to a draft of this report The Shriver
                                                         Center generally concurred with the findings and
                                                         stated that they were taking corrective action.
                  REPORTS ISSUED DURING THE PERIOD
                    OCTOBER 1,1996 - MARCH 31,1997

                                                            Federal       Federal
Report   Start   Report                                     Dollars       Dollars
Number   Date     Date             Report Name             Questioned   Unsupported



                          Audit of PennSERVE
                          (Pennsylvania Association of
                          Colleges and Universities)

                          Audit of the Oregon Youth
                          Conservation Corps

                          Review of the YMCA of USA

                          Review of Kansas City
                          Consensus

                          Review of YouthNet of Greater
                          Kansas City
                          Review of the Legal Services
                          Corporation

                          Review of the National Council
                          of Churches of Christ in the
                          USA

                          Review of the University of
                          Maryland at Baltimore County
                          (The Shriver Center)
                          Report on the Follow-up Study
                          to the Auditability Survey

                          Review of the Presidio
                          Leadership Center

                          Audit of Serve Houston
                          Audit of the National Service
                          Trust Fund FY95 and FY94
                          Financial Statements


                          TOTAL
FINANCIAL MANAGEMENT ISSUES RELATED TO CNS GRANTEES

Since beginning our reviews and audits of the Corporation's AmeriCorps grantees, we have
issued 36 reports. As this Semiannual Report indicates, many of our reports have disclosed
deficiencies in grantee internal control systems and failure to comply with Federal requirements.
Many have also included questioned costs.

In addition to reports on AmeriCorps grantees, we expanded our work to audit various grants
awarded by one of the Corporation's predecessor organizations, the Commission on National and
Community Service. To date, we have issued nine reports on Commission-awarded grants. We
included these grants in our audit universe because we were informed that, during their
performance, oversight by the Commission was minimal. The Corporation has assumed the
responsibility for oversight and close-out of these grants. However, few (if any) of these grants
have been formally closed. Instead, many of the same grantees have received continued funding
for the same, or similar, programs through the AmeriCorps program.

Costs questioned in OIG reports on Corporation grantees now exceed $3 million, including more
than $495 thousand related to questioned administrative costs. However, resolution of financial
management issues and questioned administrative costs has been slowed by CNS' grants
management office's ineffective practices, as discussed below.

       Audit Resolution

Under the Corporation's audit resolution policy, and in accordance with applicable laws and
regulations, CNS management is responsible for evaluating findings in OIG reports, proposing
corrective actions, and verifying that corrective actions are implemented within established time
frames. Corrective actions must address all conditions identified in the reports. Proposed
Management Decisions (PMDs) addressing findings are to be made within 100 days of a reports
issuance and final management decisions within 6 months. However, in our view, the
Corporation has not taken this responsibility seriously.

In fiscal year 1995, the OIG began a series of reviews and audits of CNS' Amencorps grantees
because we were informed that the Corporation had done little to assess the financial
management capabilities of its grantees. We also expanded our coverage to include various
grants made by one of the Corporation's predecessors, the Commission on National and
Community Service.

In fiscal year 1996, we issued 28 such reports on CNS grantees (21 ArneriCorps and 7
Commission). Of these 28 reports, 26 identified deficiencies in grantee management controls
andlor questioned costs charged to the grants. However, it was not until March 1997, due mainly
to efforts of the Corporation's new Chief Financial Officer, that CNS submitted PMDs for 23
of the reports (three PMDs had been submitted and accepted prior to March 1997). On average,
these PMDs were 200 days late according to the Corporation's standards. In other words, on
average, it took about 300 days to even propose corrective actions in response to the
OIG reports. We noted similar delays in submitting PMDs addressing conditions noted in our
reports on the Corporation's operations as well.

The Corporation's audit resolution policy also requires CNS to maintain a computerized audit
follow up tracking system. Such a system could be used to monitor the progress of the
Corporation in implementing OIG recommendations and provide information on the status of
its responses. However, CNS has not routinely updated information in the system or used it to
monitor the audit resolution process.

An analysis of the PMDs submitted in March for fiscal year 1996 grantee audits and reviews
reveals that CNS proposed to allow more than 80 percent of all costs questioned in the reports,
including 90 percent of costs questioned for the lack of documentation. The PMDs usually
reported that all management control weakness had been corrected by the grantees.

Based on our preliminary review of PMDs submitted in March, we do not believe that CNS
grants management is adequately reviewing grantee corrective actions prior to preparing a PMD.
In some cases, CNS is accepting a grantee's assertion that correction action has been taken rather
than performing a site visit to confirm that the corrective action was implemented. In other
cases, CNS has proposed to accept supporting documentation for costs that does not meet
Federal standards, or that was not made available during the audit or review. Documents
provided after the fact, in our view, are suspect. We would expect CNS to accord them less
evidentiary value as support for the allowability and allocability of grant costs.

We recommend that the Corporation appropriately follow up OIG findings and recommendations
by

   promptly visiting grantees to review and assess the adequacy of their corrective action
   measures or plans; and

   requiring them to provide supporting documentation that meets Federal standards.

We also recommend that the Corporation

   establish an audit resolution tracking system in compliance with OMB requirements;

   use it to monitor the status of its follow up activities and to assess whether conditions
   reported in OIG reports are unique to a specific grantee or symptomatic of problems that
   should be corrected by the Corporation; and

   hold personnel accountable for appropriate resolution of audit findings and recommendations.
       Administrative Costs

A number of OIG reports have raised concerns about how AmeriCorps programs are classifying
costs in their budgets and charging costs to their grants in light of the five percent cap on Federal
funding for "administrative costs."

The CNS regulations that define administrative costs subject to the cap discuss how personnel
costs charged to AmeriCorps grants are to be split between "programmatic"and "administrative"
costs according to the type of work being performed. However, in a number of our audits and
reviews, we saw almost no staff time included in the administrative cost budgets or being
charged as administrative costs. This led OIG to examine the work being done by the grantee
staff. Based on this analysis, OIG determined that certain staff costs should be reclassified to
administrative costs subject to the five percent cap. Reclassifications often led total
administrative costs that exceeded the five percent cap. To date, our reports have questioned
about $495 thousand in costs as exceeding the five percent cap after we reclassified personnel
costs to administration.

The Corporation's Office of Grants Management uniformly disagreed with our interpretations
of the CNS regulations defining administrative costs. Efforts over the past year to reach a
common understanding of the definition and how it applies to staff costs in AmeriCorps program
staff costs have not been fruitful.

In January 1997, to bring a fresh, outside perspective to this problem, OIG retained a consultant.
This consultant has extensive experience in advising human resource programs that receive
Federal grants on cost accounting issues. We recently asked the consultant to review OIG
Report 96-07, Review of the ARC of the United States, in which we reclassified significant
amounts of grantee staff costs as administrative costs subject to the five percent cap. The
consultant reported

       'Both the OIG audit staffand ARC have certain validpoints of view even though
      they are conflicting. The disagreements revolve around the interpretation of CNS
      regulations with regard to administrative costs and demonstrate a lack of clarity in
      the regulations. Thefact that the regulations can be validly interpreted in several
      ways creates a fundamental weakness in grants administration.

       In addition, the structure of the ARC budget creates ambiguities as to the
       requirementsfor meeting proper accountability. Therefore, the grantee should not
       be held solely liable with regard to thefindings. The CNS grants management sta#
       is culpable regarding advice that resulted infaulty procedures and adverse audit
      findings. "

In regard to OIG's recommendations to reclassify certain personnel costs as subject to the
administrative cost cap, the consultant advised
      5% light of the lack of speciJicity and clarity in the regulations and the budget, the
      grantee should not be penalized and the disallowed costs should be rescinded with
      a finding that CNS grants management clariJL the specific elements of cost that
      comprise Xdministration' in future budgeting. "

Although we agree with our consultant that the grantees should not be penalized for problems
with the CNS regulations in this area, OIG recommends that the Corporation immediately
address this problem through interim regulations established to provide clearer guidance. The
interim regulations would define fixed percentages of certain positions that would be charged
to administrative costs for the current round of awards. We also recommend that the Corporation
issue final regulations clearly defining administrative costs and the application of indirect cost
rates. Further, we recommend that CNS use a budget structure which relates grant spending to
the grant's objective rather than the arbitrary cost categories that it now uses. This change would
aid in monitoring grantee costs and provide useful information to support Government
Performance and Results Act analysis.
                                 INVESTIGATIONS

We began this reporting period with 26 previously-opened investigative actions. During the
reporting period we opened seventeen new investigative actions and closed 25. We had 18
investigative actions pending at the end of this reporting period.

HIGHLIGHTS OF INVESTIGATIONS CLOSED DURING THIS REPORTING PERIOD

                           -                          -
       False Time Sheets Theft of Federal Funds State Conviction
A former employee of an RSVP grant recipient, whose salary was paid with Federal funds from
the RSVP grant, prepared and submitted fraudulent time sheets reflecting she worked 243 hours
more than she actually worked. As a result, she received $1,557 in wages for hours she did not
work. The U.S. Attorney declined to prosecute. The individual was prosecuted in state court,
and in return for her guilty plea, the state dismissed 19 counts of First Degree Offering a False
Instrument for Recording and 2 counts of Theft of More Than $500 but Less Than $15,000. The
employee was ordered to pay a fine of $500, pay various court and associated costs, serve 2 years
probation, and make restitution. We provided this information to Corporation management and
they took action to ensure the receipt of the court-ordered restitution was processed correctly.
(97-002)

       AIleged False or Inaccurate Time Sheets - Prosecution Declined
We completed an inquiry into potential criminal matters that we found during our investigation
of an unrelated AmeriCorps Member complaint. Our inquiry disclosed evidence to indicate that
an AmeriCorps site coordinator certified on several AmeriCorps Member's end of service forms
that the AmeriCorps Members completed more total service hours than were reflected on the
AmeriCorps Member's time sheets. Further, many of the individual time sheets that supported
the hours reported on the end of service forms contained errors which overstated the amount
of service hours actually performed, indicated that service hours were allowed for
inappropriate service activities, or, in some instances, the time sheets simply could not be
located. We determined that five full-time AmeriCorps Members were awarded full-time
service education awards when they had not accumulated the required number of service
hours, and two part-time AmeriCorps Members were awarded part-time service awards when
they had not accumulated the required number of service hours. The U.S. Attorney declined
to prosecute due to the nature of the matter and the low dollar amount involved. The grantee
ultimately withdrew their application to renew their AmeriCorps grant. (96-017)

       Alleged Sexual Harassment - Findings Reported to Management
We completed an inquiry into allegations that AmeriCorps Members at a grantee's site were
sexually harassed when a supervisor had unspecified sexual relations with unnamed
AmeriCorps Members, and when a former supervisor took unnamed ArneriCorps Members
to his home for lunch and to unidentified "strip clubs." Our inquiry developed evidence that
tended to substantiate the allegations. We also learned that the grantee was aware of the
allegations prior to our being notified and had already taken corrective action regarding all but
the most recent allegation. We issued a letter to Corporation management reporting our
findings for whatever action the Corporation deemed appropriate. (97-007)

       Alleged Forgery - Crime Conducive Conditions Referred to Management
We completed an inquiry into allegations that a Corporation employee forged the signature of
a Corporation management official and made improper travel related charges using his (the
employee's) Corporation-issued government charge card. We did not feel there was sufficient
evidence to substantiate the alleged forgery. Our inquiry determined that many of the
employee's travel related charges, characterized by management as questionable, were
approved by management and all such claims submitted by the employee were paid by the
Corporation. We also noted that some of the travel vouchers we reviewed were not submitted
for approval and payment until several months after the employee's travel was complete. Two
of the vouchers were not submitted for almost one year after the travel was complete. We
issued a letter to Corporation management reporting our findings and the need for improved
policy, training, and guidance. (96-021)

       Alleged Theft - Prosecution Declined
We completed an inquiry into allegations that a former Corporation employee may have
obtained, for other CNS employees, one or more travel advances and subsequently failed to
provide some or all of the money to the employee for whom it was obtained. The employee
was terminated (for reasons unrelated to the alleged theft of travel advances) several months
prior to the discovery of the alleged thefts. The U.S. Attorney's Office declined to prosecute,
stating that the dollar loss was below their threshold. (95-11)

       Alleged Travel Abuse - Findings Reported to Management
We completed an inquiry into the propriety of lodging payments made to a Corporation
employee while that employee was detailed to various positions within the Corporation. Our
inquiry identified no criminality or abuse, however, a senior manager's admitted unfamiliarity
with the Federal travel regulations may have resulted in the Corporation incurring higher per
diem costs than necessary. Further, the Corporation employee circumvented travel procedures
when he used a government travel card to pay for lodging for a visiting consultant and later
submitted a voucher to obtain reimbursement for the lodging (although the voucher did
accurately state the purpose of the expense). We issued a letter to Corporation management
reporting our findings and the need for improved policy, training, and guidance. (96-027)
       Alleged Falsifcation of Identity Documents - Referred to Appropriate Agencies
We completed an inquiry that disclosed evidence that fraudulent dates of birth of four
AmeriCorps Members, all 16 years of age, were entered on Immigration and Naturalization
Service (INS) forms by an employee of a Corporation grantee. We also found evidence that
this same employee altered the date of birth of one of the four ArneriCorps Members on a copy
of the AmeriCorps Member's state driver's license. We referred the falsification of INS
documents to the INS and we referred the alteration of the state driver's license to state
authorities. The Corporation did not renew the funding for this program. (95-21)

                                      -
       Alleged Criminal Misconduct Referred to ZRS
We received allegations that a Corporation employee was involved in misconduct that involved
income tax fraud. We conducted a preliminary inquiry and subsequently referred the
information regarding the alleged income tax fraud to the Internal Revenue Service (IRS). We
found no additional evidence of criminal misconduct. (96-039)

OTHER SIGNIFICANT MATTERS
In December 1996, the Corporation's former Acting Executive Director notified the OIG of
an alleged conflict of interest situation and possible unauthorized expenditure of grant funds
involving a grantee in Puerto Rico. From the documents provided by the Corporation official,
it appeared that in a letter dated June 18, 1996, the program director for the grant informed
the Corporation's program officer of the alleged conflict of interest situation. There was
nothing to indicate why six months elapsed before the OIG was notified of the alleged conflict
of interest, nor was there anything to indicate what, if any, actions were taken by the
Corporation during the six-month period.
The allegation concerning the "unauthorized expenditure" of grant funds appeared to involve
a failed attempt in December 1995 by Corporation staff to restrict advances of grant funds
made to the grantee by the Department of Health and Human Services. However, there was
nothing to reflect what actions, if any, the Corporation undertook to ensure the grantee was
unable to obtain unapproved advances, after the Corporation placed a hold on the grantee's
"Payment Management Account. "
In January 1997, we informed the Corporation's Chief Executive Officer (CEO) of the
aforementioned six-month delay in reporting allegations of impropriety to the OIG, and of the
failed attempt to stop payment to a grantee. We requested that the CEO direct the appropriate
Corporation staff to provide, in writing, all measures they have taken regarding the alleged
conflict of interest situation and the unauthorized advances of grant funds to the grantee, or
a statement that they have done nothing to address or resolve the allegations. In February
1997, we repeated this request to the Corporation's Acting Chief Operating Officer. At the
close of this reporting period the requested information had not been provided. On April 9,
1997, we again requested a report from management on these matters. We are holding further
action by our office in abeyance pending receipt of the requested information.
                           STATISTICAL SUMMARY OF INVESTIGATIONS


    Opened and Closed
    Number of Cases Open at Beginning of Reporting Period..............................

    Number of New Cases Opened During This Reporting Period.......................

    Number of Cases Closed During This Period With
     . .         . .
    Significant Findings.........................................................................................

    Number of Cases Closed During This Period With
        . .         . .
    No Significant Findings...................................................................................


     Total Cases Closed This Reporting Period......................................................

    Number of Cases Open at End of Reporting Period........................................
     Referred
     Number of Cases Referred for Prosecution During
     This Reporting Period......................................................................................

     Number of Cases Accepted for Prosecution During
     This Reporting Period......................................................................................

    Number of Cases Declined for Prosecution During
    This Reporting Period ......................................................................................


     Number of Cases Pending Prosecutive Review...............................................




' Includes one case presented for prosecution during a previous reporting period and declined during this reporting
period.

  Pending from previous reporting period.
         REVIEW OF LEGISLATION AND REGULATIONS

Section 4(a)(2) of the Inspector General Act directs the Office of the Inspector General to review
and make recommendations about existing or proposed legislation and regulations relating to the
Corporation's programs and operations. The OIG recommendations, which we are to include
in our Semiannual Reports, should specifically address the impact of the legislation and
regulations on the economy and efficiency of the administration of the Corporations' programs
and operations. The OIG is also to make recommendations in its Semiannual Reports concerning
the impact of the legislation and regulations on the prevention and detection of fiaud and abuse
in programs and operations administered or financed by the Corporation.

REAUTHORIZATION OF CNS PROGRAMS

Under the National and Community Service Act of 1990, as amended, and the Domestic
Volunteer Services Act of 1973, as amended, Congress must reauthorize the Corporation's
programs before the end of fiscal year 1997.' To date, there has been no specific legislation
proposed to reauthorize Corporation programs. However, on March 27, 1997, the Corporation
issued a "discussion draft" of a document entitled "Reauthorization of National Service
Legislation: Major Issues and Proposals for Discussion."

The discussion draft reflects the results of the Corporation's internal deliberations and
discussions with outside parties on issues that it should raise with the Congress in the context
of seeking reauthorization. The Corporation issued the discussion draft to allow interested
parties the opportunity to express their views on certain key issues and possible legislative
options raised in the discussions held to date. The Corporation grouped the .issues and options
included in the draft under four general categories: Goals of National Service; Program
Structures for the Delivery of National Service; Program-Specific Issues; and Administrative and
Other Issues. The Corporation also stated that a fifth category of issues raised by interested
groups would be added later.

Under our responsibility to review proposed legislation under section 4(a)(2) of the Inspector
General Act, we have reviewed the legislative options included in the discussion draft. Based
on that review, and on the work we have conducted in reviewing the Corporation's programs and
operations, we have the following comments and recommendations concerning reauthorizing
CNS's programs.



'The National and Community Service Trust Act amended the National and Community Service Act of 1990 and
authorized appropriations for the covered CNS programs through fiscal year 1996. In addition, the National and
Community Service Act, 42 U.S.C. 12641, makes the provisions of 20 U.S.C. 1226a applicable to the Corporations'
authorizing statute. Section 1226a provides for an automatic one-year extension of authorization of any covered
program, unless the Congress enacts a law reauthorizing or repealing the prior authorization.
       Fixed Grant Amounts for AmeriCorps Programs

The Corporation currently expends significant resources in the process of negotiating detailed
budgets and final grant amounts for many of its AmeriCorps*State and National Direct
programs. To reduce this administrative burden, the Corporation is considering asking the
Congress to allow it to fix maximum and average amounts per AmeriCorps Member that may
be awarded to each program. The actual amount of awards would then be determined based on
the number of AmeriCorps Members each program is allowed and the h d i n g allowed per
AmeriCorps Member subject to the maximum and average cost requirements.

We agree that a fixed grant approach would improve the efficiency of the Corporations' grant
award processes. In addition, a fixed grant approach would ameliorate some of the compliance
problems noted in our AmeriCorps program audits. Our audit work has shown that some
AmeriCorps programs, particularly those with little experience with Federal grants, have
difficulty in complying with Federal grant management requirements. These problems often
occur in regard to properly supporting the costs charged to AmeriCorps program grants.
AmeriCorps grants of a fixed amount for each AmeriCorps Member would not be subject to
Federal cost principles. Therefore, AmeriCorps programs would not have as many difficulties
in complying with the requirements applicable to their grants.

However, if AmeriCorps program grants are no longer going to be subject to Federal cost
principles, the Corporation will have to adopt some other means of holding AmeriCorps grantees
accountable for their use of the Corporations' grant funds. To achieve this accountability, we
recommend that the Corporation require each program to establish measurable performance
goals that will be achieved through their AmeriCorps grant, and use the extent to which
programs achieve their performance goals as a means to assess whether programs should
continue to be funded.

       Learn and Serve America National Service Scholars

In 1997, the Corporation began a new program of offering $500 matching scholarships for high
school juniors and seniors students who have been active in community service for at least a
year. A matching scholarship is available to a single student at each high school, who will be
selected by the school's principal. The Corporation is considering asking the Congress to allow
the National Service Trust to be used to finance this program.

On March 10, 1997, we issued OIG Report 97-27, Audit of the National Service Trust Fund
Fiscal Year 1995 and 1994 Financial Statements. In that report, the auditors stated that they
were unable to express an opinion on the Trust Fund's financial statements. One of the principal
reasons that the firm was not able to express an opinion was that the Corporation did not
maintain sufficient accounting records regarding its liability for post-service education benefits
that the Trust will be required to pay. Until the Corporation is able to produce and maintain
auditable accounting records to support the amount of this liability, the Corporation and the
Congress will not have reliable information about the extent of any surplus within the Trust
Fund. We recommend that the Corporation develop a reliable estimate of the surplus, if any, in
the National Service Trust Fund before using present Trust Fund balances to finance new
initiatives. Until then, new initiatives should be financed through other funding sources.

       Program Structures for the Delivery of National Service

Based on its discussions with interested parties so far, the Corporation has identified a need to
increase collaboration between the Corporation's service programs (AmeriCorps*State, National
Direct, and VISTA; Learn and Serve America; and the programs of the National Senior Service
Corps). The Corporation also identified the need to reduce the confusion and administrative
burdens on organizations seeking the Corporation's assistance under these programs, and to
increase the efficiency and effectiveness of the Corporation' own operations.

To address these needs, the Corporation is considering asking the Congress to consolidate the
administrative structures for its programs within each state. Currently, ArneriCorps*VISTA and
National Senior Service Corps programs within each state are administered by a Federal agency
office (a Corporation State Office) while AmeriCorps*State programs are administered by a state
agency (the State's Commission on National and Community Service). The Corporation is
considering several options to consolidate these two offices within each state, generally by
transferring greater responsibility to the various State Commissions. Through consolidating the
offices, the Corporation hopes to increase collaboration among the various programs, simplify
the processes for applicants seeking financial assistance for their service programs, and reduce
the resources devoted to administration of the Corporation programs in each State.

In considering various options, we recommend that the Corporation pay particular attention to
how consolidating its State Offices and State Commission operations will affect the oversight
of Corporation - handled programs in each State. The Corporation State Offices have been
overseeing the performance of VISTA, Foster Grandparents, Senior Companions and RSVP
programs for as long as 30 years. In contrast, the State Commissions have been administering
AmeriCorps programs in their States only since 1994. As part of any efforts to consolidate its
field structure, we recommend that the Corporation perform an assessment of its oversight
practices for both National and Community Service Act and Domestic Volunteer Service Act
programs, and compare them to oversight practices at other Federal agencies. The Corporation
should then incorporate the best practices identified in the assessment as part of its oversight and
monitoring efforts.

        The Corporation's Status as a Government Corporation

The National and Community Service Act of 1993 created the Corporation for National and
Community Service as a wholly-owned government corporation under the Government
Corporation Control Act (3 1 U.S.C. 9101 to 91 10). Generally, government corporations have
been created when the Federal government needed an instrumentality to engage in business-like
operations, such as providing insurance or selling goods or services. Furthermore, through their
commercial-type operations, government corporations are able to achieve a significant part of
their operating fund requirements through revenue-generating activities. Because of these
differences from other Federal agencies, which must rely almost exclusively on Congressional
appropriations for their operating fund needs, government corporations were given the authority
to set up business-type budgets, were given greater flexibility in managing their operations, and
were required to prepare annual management reports including audited business-type financial
statements.

However, the central role and functions of the Corporation are unlike other government
corporations. The Corporation is principally a grant-making and program oversight agency,
much like many other Federal agencies. Although it has the authority to solicit and accept
donations, the corporation does not engage in business-like operations that produce regular
revenue, operations are financed by appropriations. Moreover, the Corporation has been unable
to comply with the requirement to prepare and submit an annual management report with audited
financial statements.

Accordingly, in reauthorizing National and Community Service Act and Domestic Volunteer
Service Act programs, we suggest that the Congress reconsider the Corporation's status as a
government corporation. While being a government corporation has given the Corporation some
greater flexibility in managing its operations, it does not need to be a government corporation
to be given this flexibility. In establishing the Corporation as an independent Federal agency,
the Congress would be able to establish the specific type of performance goals, measures of
success, and oversight and accountability reporting that would best suit its needs, rather than
relying on those established for government corporations.

REVIEWS OF CNS PROGRAM GUIDANCE

Section 4(a)(2) of the Inspector General Act only requires OIG to review the Corporation's
existing and proposed regulations. However, the Corporation has adopted the practice of using
less formal means than regulations to impose requirements, issue instructions, and provide
guidance to its grantees. These more informal means (including Notices of Funds Availability,
Policy Statements, Program Guidelines, Grant Application Instructions, Grant Provisions,
Updates, Memoranda and other documents) often affect the Corporation programs and grantee
operations as significantly as regulations included in the Code of Federal Regulations.
Accordingly, OIG has asked Corporation management to give OIG the opportunity to review and
comment on all documents intended to set or reiterate policies regarding the Corporation
programs and operations. Between October 1, 1996 and March 3 1, 1997, OIG reviewed a
number of Corporation policy-setting documents including the guidelines and application
instructions for the AmeriCorps and Learn and Serve grants. OIG will continue reviewing these
draft policy-setting documents and will include recommendations in future Semiannual Reports
as required under section 4(a)(2) of the Inspector General Act.
                         TABLE I
     INSPECTOR GENERAL REPORTS WITH QUESTIONED COSTS

                                                      Federal Costs
                                      Number   Questioned       Unsupported

                                                   (Dollars in thousandr)

      For which no management          22         $1,766              $1,199
      decision has been made by the
      commencement of the
      reporting period
      Which were issued during the
      reporting period
      Subtotals (1 plus 2)
      For which a management
      decision was made during the
      reporting period
      (i)    dollar value of
             disallowed costs
      (ii)   dollar value of costs
             not disallowed
      For which no management
      decision has been made by the
      end of the reporting period
      (3 minus 4)




6.    Reports with questioned costs    20
      for which no management
      decision was made within six
      months of issuance
                         TABLE I1
     INSPECTOR GENERAL REPORTS WITH RECOMMENDATIONS
              THAT FUNDS BE PUT TO BETTER USE

                                                      Number   Dollar Value


A.    For which no management decision has been         0           0
      made by the commencement of the reporting
      period


B.    Which were issued during the reporting period


C.    For which a management decision was made
      during the reporting period


      (i)    dollar value of recommendations that
             were agreed to by management


             --     based on proposed management
                    action


             --     based on proposed legislative
                    action


      (ii)   dollar value of recommendations that
             were not agreed to by management


D. For which no management decision has been
      made by the end of the reporting period
      Reports for which no management decision was
      made during six months of issuance
                       TABLE I11
 SUMMARY OF AUDITS WITH OVERDUE MANAGEMENT DECISIONS
                                                                          Federal             Mgmt.         Status of as
Report                                                                    Dollars            Decision       March 31,
Number                           Report Title                            Questioned           Due*             1997
                                                                        ( i n tlrousands)

              Senior Service Corps, Inc.

              Fresno Adult Literacy

               Commonwealth of Kentucky

              Review of the New Orleans Youth Action
              Corps

               Review of the Woodrow Wilson National
               Fellowship Foundation
               Review of the Arizona-Mexico
               Commission/Border Volunteer Corps

               Review of the National AIDS Fund

               Review of the National Center for Family
               Literacy
               Review of The Arc of the United States
               Review of the National Association of
               Community Health Centers, Inc.

               Review of the 1994 AmeriCorps National
               Direct Grant Award Process

               Review of the Home Instruction Program
               for Preschool Youngsters, USA
                Audit of Northwest Service Academy
                Review of the Council of Great City
                Schools

                Audit of Greater Miami Service Corps

                Audit of Public Allies
* Under Federal regulations a final management decision must be made within 6 months o f the final report's issuance.
Status
I Proposed Management Decision (PMD) not received.
2 PMD was not received until March 1997; PMD is currently under review.
3 PMD was not accepted; further action is required by CNS.
                       TABLE I11
 SUMMARY OF AUDITS WITH OVERDUE MANAGEMENT DECISIONS
                       Continued
                                                                          --



                                                                          Federal             Mgmt.         Status of as
Report                                                                    Dollars            Decision       March 31,
Number                            Report Title                           Questioned           Due*             1997
                                                                        ( i n thousands)

               Audit of ACORN Housing Corporation
               Review of Local Initiatives Support
               Corporation
               Review of the National Council of
               Educational Opportunity Associations

               Pre-Audit Survey of CNS Grants Process

               Pre-Audit Survey of CNS Procurement
               Process

               Audit of East Bay Conservation Corps

               Audit of Georgia Department of
               Community Affairs

               Audit of Montana Conservation Corps, Inc.

               Audit of CNS' FY 94 Financial Statements

               Review of I Have a Dream Foundation

               Auditability Study
               Audit of Los Angeles Conservation Corps
               Review of the Oneida Indian Nation
               Review of the Mid-Atlantic Network of
               Youth & Family Services Netswork

               Review of Bowie State University

               Total




* Under Federal regulations a final management decision must be made within 6 months of the final report's issuance

-
Status
I Proposed Management Decision (PMD) not received.
2 PMD was not received until March 1997; PMD is currently under review
3 PMD was not accepted; further action is required by CNS.
                          TABLE IV
     SIGNIFICANT REPORTS DESCRIBED IN PRIOR SEMIANNUAL
               REPORTS WITHOUT FINAL ACTION

Report                                                  Date          Final
Number                      Title                       Issued        Action       Final Action
                                                                      Due*

             Review of the New Orleans Youth                          3/06/97      Final Action has
             Action Corps                                                          not been
                                                                                   reported.

             Review of the 1994 AmeriCorps
             National Direct Grant Award
             Process
             Review of the Council of Great
             City Schools
             Audit of Public Allies

             Audit of ACORN Housing
             Corporation

             Pre-Audit Survey of CNS Grants
             Process
             Pre-Audit Survey of CNS
             Procurement Process
             Audit of CNS' FY 94 Financial
             Statements

             Auditability Study




*   Under section 6009 of the Federal Acquisitions Streamlining Act, CNS must take final corrective
    action on recommendations made in OIG reports, issued after February 10, 1996, within one year
    of the date of issuance. OIG must include information about those audit reports in its Semiannual
    Report when CNS has not completed corrective action on the audit findings and recommendations
    within this timeframe.
                    INDEX TO REPORTING REQUIREMENTS OF
                           THE INSPECTOR GENERAL


IG Act ~eference*                          Reporting Requirement                         Page


Section 4 (a)(2)       Review of Legislation and Regulations.                             17

Section 5 (a)(l)       Significant problems, abuses, and deficiencies related to the
                       administration of CNS programs and operations.                    9, 11

Section 5 (a)(2)       Recommendations with respect to significant problems, abuses,
                       and deficiencies found in the administration of CNS programs
                       and operations.                                                   10, 12

Section 5 (a)(3)       Prior significant recommendations on which corrective action
                       has not been completed.                                            25

Section 5 (a)(4)       Matters referred to prosecutive authorities.                       16

Section 5 (a)(5)       Summary of instances where information was refused.               N/A

Section 5 (a)(6)       List of audit reports by subject matter showing dollar value of
                       questioned costs and recommendations that funds be put to
                       better use.                                                         8

Section 5 (a)(7)       Summary of each particularly significant report.                    1

Section 5 (a)(8)       Statistical table showing number of reports and dollar value of
                       questioned costs.                                                  21

Section 5 (a)(9)       Statistical table showing number of repoh and dollar value of
                       recommendations that funds be put to-better use.                   22

Section 5 (a)(10)      Summary of each audit issued before this reporting period for
                       which no management decision was made by end of reporting
                       period.                                                            23

Section 5 (a)(l 1)     Significant revised management decisions.                         NIA

Section 5 (a)(12)      Significant management decisions with which the Inspector
                       General disagrees.                                                 NIA




* Refers to sections in the Inspector General Act of 1978, as amended.
